<html>
<title> - CONVEYING SYMPATHY TO THE FAMILIES OF THE YOUNG WOMEN MURDERED IN CHIHUAHUA, MEXICO, AND ENCOURAGING INCREASED U.S. INVOLVEMENT IN BRINGING AN END TO THESE CRIMES; CALLING ON VIETNAM TO IMMEDIATELY AND UNCONDITIONALLY RELEASE DR. PHAM HONG SON AND OTHER POLITICAL PRISONERS OF CONSCIENCE; CONCERNING ROMANIA'S BAN ON INTERCOUNTRY ADOPTIONS; SUPPORTING THE GOALS AND IDEALS OF WORLD WATER DAY; AND THE IRAN FREEDOM SUPPORT ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
              CONVEYING SYMPATHY TO THE FAMILIES OF THE YOUNG 
               WOMEN MURDERED IN CHIHUAHUA, MEXICO, AND ENCOURAGING 
               INCREASED U.S. INVOLVEMENT IN BRINGING AN END TO THESE 
               CRIMES; CALLING ON VIETNAM TO IMMEDIATELY AND 
               UNCONDITIONALLY RELEASE DR. PHAM HONG SON AND OTHER 
               POLITICAL PRISONERS OF CONSCIENCE; CONCERNING 
               ROMANIA'S BAN ON INTERCOUNTRY ADOPTIONS; SUPPORTING THE 
               GOALS AND IDEALS OF WORLD WATER DAY; AND THE IRAN 
               FREEDOM SUPPORT ACT 
=======================================================================

                                   MARKUP 

                                 BEFORE THE 

                                COMMITTEE ON 

                             INTERNATIONAL RELATIONS 
                             HOUSE OF REPRESENTATIVES 

                             ONE HUNDRED NINTH CONGRESS 

                                    SECOND SESSION 

                                        ON 

                H. Con. Res. 90, H. Con. Res. 320, H. Res. 578, 
                               H. Res. 658 and H.R. 282 

                                      -------

                                  MARCH 15, 2006 

                                      -------

                                Serial No. 109-161 

                                      -------

   Printed for the use of the Committee on International Relations 

                        Available via the World Wide Web:
                 http://www.hollse.gov/international_relations 

                       U.S. GOVERNMENT PRINTING OFFICE 

26-649PDF                       WASHINGTON : 2006 

  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001 

[TEXT NOT AVAILABLE REFER TO PDF]


</pre></body></html>
